         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Evaluation Report



      EPA Needs a Cohesive Plan
      to Clean Up the Great Lakes
      Areas of Concern
      Report No. 09-P-0231

      September 14, 2009
Report Contributors:         Daniel Carroll
                             Jill Ferguson
                             Natalie Hanson
                             Jeffrey Harris
                             Thane Thompson




Abbreviations

AOC           Area of Concern
BUI           Beneficial Use Impairment
EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
GLNPO         Great Lakes National Program Office
MCY           Million Cubic Yards
OIG           Office of Inspector General




Cover photo: Great Lakes National Program Office’s R/V Mudpuppy sampling in the
             Buffalo River near the Smith Street habitat restoration site, Buffalo, New York,
             August 2005 (photo from EPA Website).
                       U.S. Environmental Protection Agency                                             09-P-0231
                       Office of Inspector General                                              September 14, 2009




                       At a Glance
                                                                         Catalyst for Improving the Environment

Why We Did This Review
                                  EPA Needs a Cohesive Plan to Clean Up the
We conducted this evaluation      Great Lakes Areas of Concern
to determine how effectively
the U.S. Environmental             What We Found
Protection Agency (EPA) has
fulfilled its role for managing   Since 2004, EPA has completed five Legacy Act-funded contaminated sediment
Great Lakes Areas of Concern      clean-ups and remediated approximately 800,000 cubic yards of contaminated
(AOCs) clean-ups, particularly    sediment. However, EPA is challenged by the overall extent of the
for remediating contaminated      contaminated sediment problem in the Great Lakes AOCs. EPA is the
sediments. We examined the        designated lead Agency for the clean-ups; however, we found EPA does not
results of EPA’s Great Lakes      have a regime for coordinating remediation activities across its program offices
AOC effort and assessed           as well as with States, localities, and other stakeholders. While some results
whether EPA has an effective      have been achieved in cleaning up individual sediment sites, EPA has not
strategy to meet its goals.       developed or implemented a coordinated approach to manage clean-ups.
Background                        EPA does not know the full extent of the contaminated sediment problem.
                                  Accurate sediment estimates for more than 30 percent of the remediation sites
Thirty-one AOCs have been         remain unknown. Potential Great Lakes Legacy Act clean-up sites have an
identified around the U.S.        estimated federal cost of $2.25 billion. Local partners will have to come up
border of the Great Lakes.        with a total of $1.21 billion in non-federal matching funds before Legacy Act
All but one are polluted with     assistance is provided. We estimate that at the current rate of progress, it may
contaminated sediments. To        take more than 77 years to complete all of these clean-ups. Moreover,
provide a funding source for      remediation will be conducted in the order that individual local governments
sediment remediation,             and stakeholders can afford, rather than with regard to the risks posed to human
Congress passed the Great         health or the environment. Without improved management, coordination, and
Lakes Legacy Act (Legacy          accountability, EPA will not succeed in achieving the results intended for the
Act) in 2002. EPA, through        AOC program.
the Great Lakes National
Program Office, is                What We Recommend
responsible for working with
the States, localities, and       We recommend that the Great Lakes National Program Manager: (1) establish
other stakeholders to remove      an AOC management plan that includes written designations of authority and
this contaminated sediment.       responsibility for each EPA program office with regard to remediating
                                  contaminated sediment; (2) assign a lead EPA office to each Sediment
For further information,
                                  Remediation Site and determine the volume of contaminated sediment at each
contact our Office of             site; and (3) annually measure and publish estimates of Sediment Remediation
Congressional, Public Affairs     Site sediment volumes, clean-up costs, and stakeholder progress for each site.
and Management at
(202) 566-2391.                   EPA concurred with developing a limited management plan (but not designating
To view the full report,          site-specific leadership authorities), and proposed that this management plan
click on the following link:      would also be updated to include annual reporting on Sediment Remediation
www.epa.gov/oig/reports/2009/     Sites. However, these actions are insufficient and do not meet the intent of the
20090914-09-P-0231.pdf            recommendations. The recommendations are unresolved.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                       September 14, 2009

MEMORANDUM

SUBJECT:               EPA Needs a Cohesive Plan to Clean Up the
                       Great Lakes Areas of Concern
                       Report No. 09-P-0231


FROM:                  Wade T. Najjum
                       Assistant Inspector General, Office of Program Evaluation

TO:                    Bharat Mathur
                       Acting Great Lakes National Program Manager


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $381,379.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. However, as discussed in the report, we do not believe your
planned actions meet the intent of the recommendations and all recommendations are
unresolved. We ask that you review our comments and reconsider your responses. We have no
objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at 202-566-0827 or
najjum.wade@epa.gov; Jeffrey Harris, Director, at 202-566-0831 or harris.jeffrey@epa.gov; or
Jill Ferguson, Project Manager, at 202-566-2718 or ferguson.jill@epa.gov.
EPA Needs a Cohesive Plan to Clean Up                                                                                       09-P-0231
the Great Lakes Areas of Concern




                                  Table of Contents

Chapters
   1    Background ..........................................................................................................         1

                Purpose ..........................................................................................................    1
                Background ...................................................................................................        1
                Noteworthy Achievements..............................................................................                 3
                Scope and Methodology.................................................................................                4

   2    Current EPA Approach Not Effective for Extent of Sediment Problem ...........                                                5

                EPA Lacks Strategy for Coordinating AOC Clean-ups...................................                                 5
                Size and Responsibility for Clean-ups Undetermined ....................................                              6
                Current Fund Management Impacts Clean-up Progress................................                                    7
                Conclusions....................................................................................................      8
                Recommendations .........................................................................................            8
                Agency Comments and OIG Evaluation ........................................................                          9

   Status of Recommendations and Potential Monetary Benefits.................................                                        10



Appendices
   A    List of Beneficial Use Impairments......................................................................                     11

   B    Agency Comments on Draft Report and OIG Responses .................................                                          12

   C    Distribution ...........................................................................................................     16
                                                                                             09-P-0231




                                            Chapter 1
                                            Introduction

Purpose
                   The purpose of this evaluation was to determine whether the U.S. Environmental
                   Protection Agency (EPA), through the Great Lakes National Program Office
                   (GLNPO), was fulfilling its assigned role to effectively address the Great Lakes
                   Areas of Concern (AOCs), and whether these efforts achieved the expected
                   results. Our specific objectives were to determine:

                   1. How effectively is GLNPO fulfilling its assigned role for managing
                      contaminated sediment clean-ups in the AOCs?
                   2. How effectively does GLNPO coordinate AOC clean-ups within EPA, with
                      States, and with non-federal stakeholders?
                   3. How effective is GLNPO’s strategy in meeting its goals?

Background
                   The Great Lakes watershed is the largest freshwater lake basin in the world. The
                   five lakes (Erie, Huron, Michigan, Ontario, and Superior) cover 94,000 square
                   miles and hold 5,500 cubic miles (18 percent) of the Earth’s fresh water supply.
                   The Great Lakes border two countries, nine U.S. States, and the Province of
                   Ontario. The U.S. Government first engaged in Great Lakes management by
                   signing the 1909 Boundary Waters Treaty with Canada.

                   In 1972 and 1978,1 the United States and Canada signed the Great Lakes Water
                   Quality Agreement (the “Agreement”) to help reduce pollution in the Great
                   Lakes. In 1987, amendments to the Agreement defined an AOC as “a geographic
                   area that fails to meet the General or Specific Objectives of the Agreement where
                   such failure has caused or is likely to cause impairment of beneficial use or of the
                   area’s ability to support aquatic life.” The AOC requirements of the Agreement
                   were included in the 1987 Amendments to the Clean Water Act. At that point, the
                   Act became the controlling authority over the AOC requirements. The
                   Agreement signatories, using the Beneficial Use Impairment (BUI) criteria from
                   the Agreement, identified 43 AOCs: 26 located entirely within the United States,
                   12 located wholly within Canada, and 5 that are shared by both countries (see
                   Figure 1.1 for AOC locations).

                   In 2002, Congress enacted the Great Lakes Legacy Act (Legacy Act) to provide a
                   funding source for cleaning up sites with contaminated sediment that did not fall
                   under the jurisdiction of other environmental statutes. Through the Act, when a

1
    The United States and Canada renewed the Great Lakes Water Quality Agreement in 1978.

                                                        1
                                                                          09-P-0231


State or local sponsor commits 35 percent or more of the clean-up cost, the
remaining amount (up to 65 percent) is provided in federal funds. The Legacy
Act was reauthorized in 2008, extending funding through Fiscal Year (FY) 2010.




Figure 1.1: Geographic location of U.S. and Canadian AOCs

Source: GLNPO Website


In addition to the Clean Water Act and Legacy Act, federal environmental statutes
that impact the remediation of AOCs include the Comprehensive Environmental
Response, Compensation, and Liability Act (Superfund) and the Resource
Conservation and Recovery Act. In AOC clean-ups where these other funding
sources or mechanisms are available, the Legacy Act requires GLNPO to
coordinate with applicable regulatory or enforcement activities to ensure that
Legacy Act funds are used in a way that adds value and maximizes environmental
benefits. In addition to these statutory overlaps, three separate EPA regions (2, 3,
and 5) contain AOCs within their geographic boundaries.

The AOCs are managed by the GLNPO, which reports directly to EPA’s Region 5
Administrator. The Region 5 Administrator is also the Great Lakes National
Program Manager. GLNPO monitors the Great Lakes ecosystem indicators,
manages and provides public access to Great Lakes data, and provides assistance
for community-based Remedial Action Plans for AOCs. GLNPO’s role is to


                                 2
                                                                                  09-P-0231


         coordinate with stakeholders and encourage non-federal partners to initiate
         clean-ups in the AOCs.

         AOCs range in size from less than 1 square mile to hundreds of square miles. All
         but 1 of the 31 U.S. AOCs have some volume of contaminated sediments. The
         remaining AOC, Oswego River, was impaired for restrictions on fish and wildlife
         consumption, degradation of fish and wildlife populations, and loss of fish and
         wildlife habitat. It has since been delisted.

         Based on the most recent State estimates, the AOCs have 68 Sediment
         Remediation Sites that contain more than 76 million cubic yards (MCY) of
         contaminated sediment. Because they are located along rivers or harbors that feed
         into the Great Lakes, AOCs act as a source of contaminated sediment to the body
         of the lakes. In a few cases an AOC is managed as a single Sediment
         Remediation Site, but in most cases several Sediment Remediation Sites are
         within each AOC.

         GLNPO’s role is to assist States in developing the community-based remedial
         action plans for each AOC. These plans outline the scope of the problems in the
         AOCs and determine which of the Beneficial Uses are impaired. In addition, the
         plans identify what work needs to be completed to allow for those impairments,
         and ultimately the entire AOC to be cleaned up and “delisted.” States must
         demonstrate that all 14 specific BUIs are restored to get an area removed from the
         “list” (see Appendix A for a description of the impairment). Eleven of the 14
         impairments can be caused by contaminated sediment, and no AOC with
         contaminated sediment has been delisted.

         The Clean Water Act requires the EPA Administrator to enter into agreements
         with the other agencies involved in Great Lakes clean-up activities. Internally,
         EPA leadership is responsible for assigning the duties and responsibilities of each
         program office and region. With respect to the Great Lakes, EPA management
         assigns the time periods and resources committed to accomplish assigned duties
         and responsibilities.

Noteworthy Achievements
         GLNPO has completed five Legacy Act-funded contaminated sediment removals
         and another three projects are in the development phase. The five completed
         clean-up projects have removed approximately 800,000 cubic yards of
         contaminated sediment. To date, GLNPO has delisted one AOC (without
         contaminated sediments), delisted 11 BUIs, and has assisted States in developing
         more than 250 BUI delisting targets. GLNPO has also provided staff liaisons that
         help to facilitate each AOC's Remedial Action Plan. The role of the Remedial
         Action Plan Liaisons is to work with other EPA offices, as well as States and local
         stakeholders, to clean up the AOCs. Those other EPA offices include the Office



                                          3
                                                                                09-P-0231


         of Solid Waste and Emergency Response; Office of Water; and Office of
         Prevention, Pesticides, and Toxic Substances.

Scope and Methodology
         This evaluation focused on managing contaminated sediment in the Great Lakes
         AOCs. The AOC requirements of the Clean Water Act include other factors
         besides contaminated sediment, many of which are beyond the scope of the data
         collected for this evaluation. We understand that the entire ecological recovery
         and restoration of the Great Lakes is a complex and lengthy process whereby
         measurable success will be difficult to expedite. However, contaminated
         sediment is a primary concern in AOC management, as EPA has determined that
         as many as 11 of the 14 BUIs can be caused by contaminated sediment. Large
         amounts of contaminated sediments are across the Great Lakes; we evaluated
         EPA efforts to remove and remediate those sediments in AOCs.

         During field work, we conducted numerous interviews with a wide variety of
         EPA and State staff. These included GLNPO staff; staff from EPA Regions 2 and
         5; Headquarters staff in the Office of Water; and State staff responsible for AOC
         clean-ups in Michigan, New York, Ohio, and Wisconsin.

         The OIG reviewed the Clean Water Act; the Legacy Act and its 2008
         reauthorizing language; and Executive Order 13340, which established the Great
         Lakes Interagency Task Force. We reviewed information presented by the Great
         Lakes Regional Collaboration and the International Joint Commission, which
         facilitates the official AOC relationships between the United States and Canada.
         We collected sediment volume and remediation cost estimates from GLNPO. We
         also reviewed the EPA Strategic Plan and identified the annual and strategic
         targets for AOC clean-ups.

         We performed our evaluation between October 2008 and July 2009 in accordance
         with generally accepted government auditing standards issued by the Comptroller
         General of the United States. Those standards require that we plan and perform
         the audit to obtain sufficient and appropriate evidence to provide a reasonable
         basis for our findings and conclusions based on our objectives. We believe that
         the evidence obtained provides a reasonable basis for our findings and
         conclusions based on our audit objectives.




                                         4
                                                                                   09-P-0231




                                Chapter 2
        Current EPA Approach Not Effective for
             Extent of Sediment Problem
          At the current rate of progress, it may take more than 77 years to complete
          estimated work at all Great Lakes Legacy Act clean-up sites. However, EPA does
          not know the full extent of the contaminated sediment problem. Accurate
          sediment estimates for more than 30 percent of the remediation sites remain
          unknown. EPA has not established a regime or systematic process to manage
          remediation activities across its program offices. EPA has not defined
          responsibilities and authorities over site clean-up among the program offices;
          remediation efforts are not conducted in a coordinated approach. Consequently,
          the results intended from the AOC program will not be achieved.

EPA Lacks Strategy for Coordinating AOC Clean-ups
          GLNPO has not developed an effective management framework to address
          cleaning up contaminated sediments in the Great Lakes AOCs. It is further
          challenged by the number of overlapping federal environmental statutes that have
          jurisdiction over the AOC sediment clean-ups. EPA has not assigned a lead
          program office for half of the remediation sites located in the AOCs. Currently,
          the programs responsible for these overlapping statues coordinate within the
          AOCs informally. Complexities related to the overlapping statues include:

             •   Superfund jurisdiction over numerous sites within the AOCs,
             •   Clean Water Act enforcement actions that are pending,
             •   Resource Conservation and Recovery Act contamination removal, and
             •   Statutory limitation of Legacy Act funds to remediate a site that is being
                 cleaned up using Superfund money.

          The Clean Water Act requires EPA to develop coordinated planning processes
          and ensure the implementation of State Remedial Action Plans. It also requires
          EPA to ensure related programs within the Agency (Water, Superfund, and any
          EPA Program Office involved in the clean-up) enter into agreements for work to
          be completed. EPA is also required to delineate duties, timelines, and resources
          committed to AOC work among its Program Offices and regions as well as other
          stakeholders.

          To date, the Great Lakes National Program Manager has not established a formal
          strategy for how GLNPO will coordinate and plan efforts with the States.
          GLNPO told us that it engages in regular dialogue with States and other potential
          sponsors on project submittals. GLNPO staff said that they prefer this informal


                                           5
                                                                                                            09-P-0231


                  management approach and will continue to use it, rather than a more structured
                  strategy, to address all sediment issues.

                  Overlapping program responsibilities and unclear lines of authority between EPA
                  program offices and others, combined with a lack of accountability, result in an
                  ineffective program for AOC clean-up. EPA has not determined its likely course
                  of action for each AOC and Sediment Remediation Site. GLNPO has focused its
                  efforts on an informal approach, engaging in dialogue with stakeholders, but has
                  not developed specific coordination regimes. Many Sediment Remediation Sites
                  remain unassessed, impacting the accuracy of cost, volume and completion date
                  estimates. Consequently, the true extent of sediment contamination and scope of
                  work at each site is unknown.

                  In the absence of coordinated planning, costs can escalate, resources are wasted,
                  and risks to human health and the environment increase due to delays in site
                  clean-ups. Regardless of the amount of funding available, it is unlikely that
                  EPA’s efforts to clean up these sites will be successful until EPA assigns
                  responsibility and accountability for each Sediment Remediation Site to a specific
                  program office.

Size and Responsibility for Clean-ups Undetermined
                  In 2005, the GLNPO asked States to provide estimates for the volume and cost of
                  remediating contaminated sediment in the AOCs. The States estimated that
                  approximately 76 MCY of contaminated sediment need to be managed across 68
                  Sediment Remediation Sites. However, States did not provide sediment volume
                  estimates for 23 of these sites. Therefore, the 76 MCY estimate does not describe
                  the total amount of sediment in the AOCs.

                  As discussed above, authority for remediation of AOC sediments can vary
                  between Superfund, other environmental statutes, and the Legacy Act. While the
                  2005 sediment estimates are not complete, they are the only data available.
                  Figure 2.1 on page 7 represents a GLNPO representative’s predictions of site
                  designation. Authority over and management of these estimated sediment
                  volumes depend on the designation of each Sediment Remediation Site. There
                  are 22 sites, comprising approximately 27.9 MCY of sediment, that are on the
                  Superfund National Priorities List. GLNPO expects them to be managed by
                  Superfund because they are on the National Priorities List. EPA decided two sites
                  comprising approximately 33 MCY of contaminated sediment will be left in place
                  and undisturbed, referred to as natural attenuation.2 GLNPO, through the Legacy
                  Act, will potentially be responsible for at least 15.2 MCY of sediment in sites
                  where estimates are available, but could ultimately be responsible for significantly
                  more sediment.

2
  In natural attenuation, the contaminated sediment is left in place and until it is covered with clean sediment or
degraded through natural processes.

                                                           6
                                                                                                        09-P-0231


                 Figure 2.1: Distribution of Contaminated Sediments in AOCs by
                 GLNPO-Anticipated Site Lead (in MCY)




                        Natural
                                                                                 Superfund
                      Attenuation
                                                                                 27.9 MCY
                      33.0 MCY




                                        Other                      Legacy Act
                                       0.4 MCY                     15.2 MCY

                 Source: GLNPO


Current Fund Management Impacts Clean-up Progress
                 After receiving the State estimate data, the Great Lakes Regional Collaboration,3
                 in 2005, estimated that it would take a total of $3.46 billion to clean up Legacy
                 Act sediment. The Regional Collaboration recommended that Congress
                 appropriate $2.25 billion of funding (or $150 million per year over 15 years) to
                 fund the federal portion of these clean-ups.

                 The complexity in accomplishing clean-ups is compounded by the Legacy Act
                 requirement that each sediment remediation project have a non-federal sponsor.
                 Such a sponsor must contribute at least 35 percent of the cost of the remediation,
                 either in cash or through in-kind assistance before work begins. Using the
                 $3.46 billion cost estimate from the Great Lakes Regional Collaboration, the
                 non-federal share of these clean-ups would total approximately $1.21 billion.

                 These remediation projects depend upon local funds and support to produce the
                 non-federal share. Remediation projects are not approved and site-specific
                 planning does not begin until EPA is assured of the funding match.
                 Consequently, the clean-ups are conducted in the order that individual local
                 governments and stakeholders can afford them, rather than with regard to the risks
                 posed to human health or the environment. As a result, this requirement creates
                 an obstacle to progress, especially when local governments and partners are under

3
 In 2004, the Great Lakes Regional Collaboration of National Significance was created with members from federal,
State, and local governments; tribes; and other stakeholders. In accordance with Executive Order 13340, a strategic
plan for the Great Lakes was developed.

                                                         7
                                                                                  09-P-0231


         financial stress. To date, at least four potential sediment remediation projects
         have been postponed because the non-federal partners were unable to reach the
         35-percent match.

         The average amount of Legacy Act funding between FYs 2005 and 2008 was
         $29 million. Based on the Great Lakes Regional Collaboration estimated funding
         need and the average annual funding, we estimate that cleaning up the
         contaminated sediment sites through the Legacy Act will take over 77 years to
         complete. Moreover, restoring specific impairments may not occur for many
         years following sediment remediation, making the timeframe for complete
         recovery even longer.

Conclusions
         Cleaning up the contaminated sediments in the Great Lakes AOCs is a large,
         complex, and expensive undertaking; the full scope of the resources required
         remains unknown. EPA has not developed the specific strategies or management
         control processes necessary to implement a successful sediment remediation
         effort of that magnitude. Further, EPA has not conducted site assessments to
         determine the full scope of the sediment contamination, which prevents accurately
         estimating resources needed to complete sediment clean-ups. EPA has also not
         formally designated which Program Offices will be responsible for each clean-up.
         This informal AOC management approach results in a lack of accountability for
         achieving results. Resource challenges at both the federal and local levels will
         impact the clean-up progress. While EPA has made progress cleaning up some
         Sediment Remediation Sites, the program could be more effective by
         implementing management processes and completing site assessments to
         determine the extent of resources needed to manage the AOC sediment problem.

Recommendations

         We recommend that the Great Lakes National Program Manager:

         2-1 Establish an AOC management plan that includes written designations of
             authority and responsibility for each EPA program office with regard to
             remediating contaminated sediment.

         2-2 Assign a lead EPA office to each Sediment Remediation Site, responsible
             for developing a site-specific action plan, completing site assessments if
             needed, and determining the clean-up timeframes and resource needs of the
             project.

         2-3 Annually measure and publish estimates of Sediment Remediation Site
             sediment volumes, clean-up costs, and stakeholder progress for each
             Sediment Remediation Site.


                                          8
                                                                                 09-P-0231


Agency Comments and OIG Evaluation
         GLNPO responded to our draft report by stating that the Great Lakes Legacy Act
         program is being strategically and effectively managed, and is producing
         environmental results while working within the resource limitations and
         programmatic structure and requirements provided by the Act. EPA disagreed it
         had not developed an effective management framework to address cleaning up
         contaminated sediments in the Great Lakes AOCs. Further, EPA stated that it
         believes the type of management framework which is recommended in the draft
         report would not result in greater progress for achieving contaminated sediment
         remediation goals.

         We outline our findings, as well as descriptions of a lack of strategy and
         coordination and the undetermined size and responsibility of the clean-ups, in
         Chapter 2. GLNPO has acknowledged a need to understand the “full scope” of
         the sediment contamination by conducting additional site assessments.
         Nevertheless, there is no formal process or Agency policy document at the
         regional and National Program Management level that specifically defines the
         roles, responsibilities, and authorities required to conduct assessment and
         planning at each Sediment Remediation Site.

         Further, as noted in Chapter 1, since the AOCs were first designated in 1987, only
         one AOC has been delisted, and that AOC did not require the removal of
         contaminated sediments. EPA has yet to exercise all of its authorities to ensure
         that available resources are optimally allocated and program effectiveness is
         maximized. After 5 years, EPA has not conducted all of the site assessments
         necessary to determine the full scope of sediment contamination and cannot
         accurately estimate the resources needed to complete sediment clean-ups. We
         believe making informed decisions about spending public funds requires realistic
         plans based on facts with progress measured against specific baselines.

         See Appendix B for a copy of the Agency response and OIG comments.




                                          9
                                                                                                                                        09-P-0231



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                             BENEFITS (in $000s) 2

                                                                                                                  Planned
    Rec.   Page                                                                                                  Completion   Claimed     Agreed To
    No.     No.                          Subject                          Status1           Action Official         Date      Amount       Amount

    2-1      8     Establish an AOC management plan that includes           U             Great Lakes National
                   written designations of authority and responsibility                    Program Manager
                   for each EPA program office with regard to
                   remediating contaminated sediment.

    2-2      8     Assign a lead EPA office to each Sediment                U             Great Lakes National
                   Remediation Site, responsible for developing a                          Program Manager
                   site-specific action plan, completing site
                   assessments if needed, and determining the
                   clean-up timeframes and resource needs of the
                   project.

    2-3      8     Annually measure and publish estimates of                U             Great Lakes National
                   Sediment Remediation Site sediment volumes,                             Program Manager
                   clean-up costs, and stakeholder progress for each
                   Sediment Remediation Site.




1 O = recommendation is open with agreed-to corrective actions pending;
  C = recommendation is closed with all agreed-to actions completed;
  U = recommendation is undecided with resolution efforts in progress
2 Identification of potential monetary benefits was not an objective of this evaluation




                                                                                10
                                                                                        09-P-0231


                                                                                    Appendix A

                  List of Beneficial Use Impairments

Impairment of beneficial use(s) means a change in the chemical, physical, or biological integrity
of the Great Lakes System sufficient to cause any of the following:

 1.    restrictions on fish and wildlife consumption;
 2.    tainting of fish and wildlife flavor;
 3.    degradation of fish wildlife populations;
 4.    fish tumors or other deformities;
 5.    bird or animal deformities or reproduction problems;
 6.    degradation of benthos;
 7.    restrictions on dredging activities;
 8.    eutrophication or undesirable algae;
 9.    restrictions on drinking water consumption, or taste and odor problems;
10.    beach closings;
11.    degradation of aesthetics;
12.    added costs to agriculture or industry;
13.    degradation of phytoplankton and zooplankton populations; and
14.    loss of fish and wildlife habitat.




Source: Great Lakes Water Quality Agreement of 1978, as amended, 1987.




                                               11
                                                                                      09-P-0231


                                                                                    Appendix B

                 Agency Comments on Draft Report
                       and OIG Responses

MEMORANDUM

DATE:         September 04, 2009

SUBJECT:      Great Lakes National Program Office response to Office of Inspector General
              (OIG) draft report entitled “EPA Needs a Cohesive Plan to Clean Up the Great
              Lakes Area of Concern; Assignment No: 2008-00600”

FROM:         Bharat Mathur
              Acting Great Lakes National Program Manager

TO:           Jeffrey Harris, Director for Program Evaluation, Cross Media Issues

Thank you for the opportunity to review and provide comments on the draft report entitled,
“EPA Needs a Cohesive Plan to Clean Up the Great Lakes Areas of Concern; Assignment No:
2008-00600.” Please consider this as our official response in accordance with EPA Manual
2750. Below are some general comments and the Program’s response to the proposed
recommendations.

Overall, it is our belief that the Great Lakes Legacy Act (“Act”) program is strategically and
effectively managed, and is producing environmental results while working within the resource
limitations and programmatic structure and requirements provided by the Act. We believe that
EPA has developed an effective management framework to address contaminated sediments in
the Great Lakes Areas of Concern (“AOCs”). However, we have outlined below some actions
that we plan to take that we believe are responsive to your recommendations, and should enhance
the transparency of the Program.

Recommendation 2-1 in the draft report states that the Great Lakes National Program Manager,
“establish an AOC management plan that includes written designations of authority and
responsibility for each EPA program office with regard to remediating contaminated sediment.”
We concur in part with this recommendation. We will develop a management plan that will
describe the overall processes by which contaminated sediment remediation projects are
developed by various programs. Much of the information recommended for inclusion in an
AOC management plan exists and is publicly available. This information can be assembled into
one consolidated report and will be made available to the public. This report will outline our
approach for how the Program will address the contaminated sediment problem in the Great
Lakes AOCs. The report will describe the nature of the sediment problem in the Great Lakes
AOCs; our current authorities for managing contaminated sediments; and how we coordinate
with other EPA program offices as well as other entities involved in remediating contaminated


                                              12
                                                                                       09-P-0231


sediments in the Great Lakes. It will also provide a compilation of all known contaminated
sediment sites in the Great Lakes and provide information for each of these sites on: estimated
volumes; current authorities being used at each site; and status of work as currently known. The
report will document both what is being addressed by all programs including the Legacy Act
Program, and all known sites that are not currently being addressed. This report will not include
predictions of which program will address which site in the future, since EPA: a) does not have
control over which non-Federal partner will amass sufficient cost-sharing funds for Legacy Act
projects; b) does not know or have control over which state governors will request listing of
Superfund sites in the future; or, c) cannot predict future Congressional actions giving
authorization and funding the U.S. Army Corps of Engineers to undertake contaminated
sediment projects. The report will provide a summary of all the sediment remediation work that
has been done to date in the Great Lakes AOCs since 1997 including volumes remediated as well
as average clean-up costs. This report, which we will update regularly, will provide the public
with information on the status and planned actions for Great Lakes contaminated sediment sites.
It will also chronicle progress as results are achieved. We would like you to consider modifying
this recommendation to eliminate the part of the management plan requiring the site by site
determinations of responsibility for each EPA program office. We believe that this would not be
helpful in remediating contaminated sediment sites in Great Lakes AOCs. As will be explained
further under the following recommendation, EPA has an approach to track sites that are actively
being worked on or are in some stage of development (along with the office responsible for this
work) along with an approach to keep abreast of the status of sediment remediation activities in
the remaining sites throughout the AOCs.

 OIG Response: GLNPO’s development of a management plan to address Great Lakes
 AOCs is a reasonable first step. However, we do not believe that simply reporting
 GLNPO's "current authorities," "coordination processes," and the "status of work as
 currently known" is sufficient to address this recommendation. We concluded that the
 current management strategy was ineffective. Our findings and descriptions of the lack of
 strategy and formal coordination, and the undetermined size and responsibility of the
 clean-ups, are explained in Chapter 2. The Clean Water Act provides that the Administrator
 shall ensure that GLNPO enters into agreements, not merely coordinate, with the various
 organizational elements of the Agency. We recommend that a management plan designate
 the leadership authority for each of the remaining Sediment Remediation Sites. Informal
 coordination between GLNPO and other EPA Program Offices does not constitute effective
 oversight. Due to the differences between GLNPO's remedy and the OIG's outlined
 expectations in Recommendation 2-1, we consider this Recommendation to be unresolved.


Recommendation 2-2 in the draft report states that the Great Lakes National Program Manager,
“assign a lead EPA office to each Sediment Remediation Site, responsible for developing a site-
specific action plan, completing site assessments if needed, and determining the cleanup
timeframes and resource needs of the project.” We concur in part with this recommendation.
We will go through the list of sites actively being worked on and identify the program
responsible for the work (i.e., Superfund or GLLA). For the remaining sites, the staff serving as
liaisons for each of the U.S. AOCs will report through their respective management chains to the
Great Lakes National Program Office Director on the status of needed sediment
assessment/remediation activities within their respective AOCs. This will keep the sediment

                                               13
                                                                                          09-P-0231


remediation program informed of progress being made and allow EPA management to assign
staff to sites when it becomes appropriate. Additionally, we agree that it is valuable to complete
additional site characterizations. We believe that in the Great Lakes region we have a good
understanding, in general terms, of the nature and extent of contaminated sediments, based upon
the work we have done in conjunction with the states and others over the past 15 years.
However, we will be utilizing a new provision under the reauthorized Legacy Act (October 8,
2008) to assist us in gathering additional information. This new provision states that, “The
Administrator, in consultation with any affected State or unit of local government, shall carry out
at Federal expense the site characterization of a project under this paragraph for the remediation
of contaminated sediment.” This will allow us to increase our understanding of the “full scope”
of the sediment contamination at particular sites. As newer information is generated from this
site characterization work, we will be able to update our site information in the report generated
in recommendation 2-1. We have recently conducted conference calls with the Great Lakes
states to help us in our selection of our first round of sites under this provision (Federal - State
AOC Coordinating Committee – FEDSTACC) and we expect to begin these assessments in the
next few months. This is not only going to provide us more information on the magnitude and
extent of sediment contamination, it will allow us to potentially move sites closer to a co-funded
GLLA project and let the non-federal sponsor work to raise the required amount of funds for the
active remediation of these sites. We believe this will be an effective tool in the development of
additional projects under the Legacy Act. Staff assigned to individual projects undertaken by all
programs will be identified in the report described in the preceding paragraph. We would like
you to consider modifying this recommendation to eliminate the need for site-specific plans for
sites not currently in the Superfund or GLLA programs. For the reasons stated, we believe our
resources would be better spent on the activities outlined above.

 OIG Response: Additional site assessments are needed; however, we do not believe that
 the remedy outlined meets the intent of Recommendation 2-2. GLNPO's response does not
 address the assignment of a lead EPA Office to each Sediment Remediation Site, the
 development of a site-specific action plan or the determination of the clean-up timeframes,
 and resources needed to complete each project. The Clean Water Act provides that the
 Administrator shall ensure that GLNPO enters into agreements, not merely coordinate, with
 the various organizational elements of the Agency. We recommend that GLNPO assign
 leadership responsibilities for each Sediment Remediation Site to a specific EPA Program
 Office. Further, we recommend that an "action plan," list the actions necessary to take each
 respective site from its current condition through to clean-up. If there is insufficient
 information or other reasons not to develop a site plan; the lead office should be accountable
 for that decision and its review. Due to the differences between GLNPO's planned actions
 and the intent of Recommendation 2-2, we consider this recommendation to be unresolved.


Recommendation 2-3 in the draft report states that the Great Lakes National Program Manager,
“Annually measure and publish estimates of Sediment Remediation Site sediment volumes,
cleanup costs, and stakeholder progress for each Sediment Remediation Site.” We concur with
this recommendation. We agree that transparency is a critical component in the work we
conduct at these contaminated sediment sites. An efficient way to provide annual reporting on
sites is to update the report generated for recommendation 2-1. We will coordinate with other

                                                14
                                                                                           09-P-0231


EPA Program Offices to update the necessary site statistics for all sediment activities in AOCs
and incorporate that information into the report. Additionally, having greater transparency on
sites and having this information available to the public may help the Program identify new
sources of non-federal match.

 OIG Response: GLNPO’s publishing of an annual report that provides regular updates
 regarding the status and conditions of each Sediment Remediation Site will be useful.
 However, we believe that the Program's customers would be better served by receiving a
 report that was separate from the internal management plan, and that should be the outcome
 of Recommendation 2-1 above.

With respect to the suggestion that planning and coordination limits the rate at which we clean
up contaminated sediment sites, it is our perspective that the main factors affecting the pace of
sediment remediation in Great Lakes AOCs are the level of funding appropriated under the Act,
and the availability of the non-federal share. Despite the financial challenges, to date the
Program has effectively utilized, or has plans to effectively utilize, all of the funds appropriated
by Congress.

 OIG Response: While the OIG recognizes that AOC clean-up projects are dependent upon
 appropriated federal funding and non-federal cost-share funds, we believe that if GLNPO
 would implement the management improvements as recommended, the Program Office
 would be better able to address the current AOC conditions when federal and non-federal
 funds do become available.


We appreciate the time and effort the Office of the Inspector General has invested to date and
would like to work collaboratively to ensure that the recommendations provided in the final
report will provide a strong basis for assistance in our collective goal of remediating
contaminated sediments in the Great Lakes. Any questions regarding this response can be
directed to Gary Gulezian, the Great Lakes National Program Office Director at 312-886-5870,
or me at 312-886-3000.


cc: Peter S. Silva, Assistant Administrator, Office of Water
    George Pavlou, Acting Regional Administrator, U.S. EPA Region 2
    Gary V. Gulezian, Director, Great Lakes National Program Office
    Tinka Hyde, Director, Water Division, U.S. EPA Region 5
    Robert A. Kaplan, Regional Counsel, U.S. EPA Region 5
    Eric Levy, Region 5 Audit Coordinator




                                                 15
                                                                              09-P-0231


                                                                            Appendix C
                                   Distribution

Office of the Administrator
Assistant Administrator for Water
Acting Great Lakes National Program Manager
   (also the Acting Regional Administrator, EPA Region 5)
Acting Regional Administrator, EPA Region 2
Director, Great Lakes National Program Office
Director for Water, EPA Region 5
Director for Superfund, EPA Region 5
Regional Counsel, EPA Region 5
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Water
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, EPA Region 5
Audit Follow-up Coordinator, EPA Region 2
Acting Inspector General




                                           16
